<html>
<title> - H.R. 4526, THE 21ST CENTURY ENERGY WORK- FORCE DEVELOPMENT JOBS INITIATIVE ACT OF 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  H.R. 4526, THE 21ST CENTURY ENERGY WORK-
                    FORCE DEVELOPMENT JOBS INITIATIVE ACT 
                    OF 2014

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 17, 2014

                               __________

                           Serial No. 113-174
                           
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                                ____________
                                
                                
                                
                           U.S. GOVERNMENT PUBLISHING OFFICE
93-816 PDF                     WASHINGTON : 2015                           
                    
_______________________________________________________________________________________                    
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6c1d6c9e6c5d3d5d2cec3cad688c5c9cb88">[email&#160;protected]</a>  
                   
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                 7_____

                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
STEVE SCALISE, Louisiana             BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               PAUL TONKO, New York
JOSEPH R. PITTS, Pennsylvania        JOHN A. YARMUTH, Kentucky
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
BILL CASSIDY, Louisiana              MICHAEL F. DOYLE, Pennsylvania
PETE OLSON, Texas                    JOHN BARROW, Georgia
DAVID B. McKINLEY, West Virginia     DORIS O. MATSUI, California
CORY GARDNER, Colorado               DONNA M. CHRISTENSEN, Virgin 
MIKE POMPEO, Kansas                      Islands
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN D. DINGELL, Michigan (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)    HENRY A. WAXMAN, California (ex 
                                         officio)

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     2
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................    19
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    20
    Prepared statement...........................................    20
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    21

                               Witnesses

LaDoris Harris, Director, Office of Economic Impact and 
  Diversity, Department of Energy................................    22
    Prepared statement...........................................    25
Harry C. Alford, President and CEO, National Black Chamber of 
  Commerce.......................................................    30
    Prepared statement...........................................    32
Casey Bell, Senior Economist, American Council for an Energy-
  Efficient Economy..............................................    37
    Prepared statement of James P. Barrett, Chief Economist, 
      American Council for an Energy-Efficient Economy \1\.......    40
Paula R. Jackson, President and CEO, American Association of 
  Blacks in Energy...............................................    44
    Prepared statement...........................................    46
Jack N. Gerard, President and CEO, American Petroleum Institute..    51
    Prepared statement...........................................    53

                           Submitted Material

H.R. 4526, the 21st Century Energy Workforce Development Jobs 
  Initiative Act of 2014, submitted by Mr. Whitfield.............     4
Letter of September 17, 2014, from Marc H. Morial, President and 
  CEO, National Urban League, to Mr. Whitfield, et al., submitted 
  by Mr. Rush....................................................    71

----------
\1\ Mr. Barrett rather than Ms. Bell submitted a written 
  statement on behalf of their organization.


     H.R. 4526, THE 21ST CENTURY ENERGY WORKFORCE DEVELOPMENT JOBS 
                         INITIATIVE ACT OF 2014

                              ----------                              


                     WEDNESDAY, SEPTEMBER 17, 2014

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2322, Rayburn House Office Building, Hon. Ed Whitfield 
(chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Shimkus, Pitts, 
Terry, Latta, Olson, McKinley, Griffith, Rush, Tonko, Yarmuth, 
Engel, Green, Barrow, and Waxman (ex officio).
    Staff present: Nick Abraham, Legislative Clerk; Leighton 
Brown, Press Assistant; Allison Busbee, Policy Coordinator, 
Energy and Power; Tom Hassenboehler, Chief Counsel, Energy and 
Power; Jason Knox, Counsel, Energy and Power; Matt Connolly, 
Democratic Legislative Assistant; Hannah Green, Democratic 
Policy Analyst; and Alexandra Teitz, Democratic Chief Counsel, 
Energy and Environment.
    Mr. Whitfield. I would like to call the hearing to order 
this morning, and I want to thank our panel of witnesses. We 
look forward to your testimony, and I will be introducing each 
one of you right before you give your statement, but we do 
thank you for attending this hearing this morning. This 
morning's hearing--and I am going to recognize myself for 5 
minutes for an opening statement.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    This morning's hearing focuses on H.R. 4526, the 21st 
Century Energy Workforce Development Jobs Initiative Act of 
2014. You all got a long title on this bill. I am particularly 
pleased to work with my friend Bobby Rush here, the ranking 
member of this subcommittee. He authored this legislation, and 
all of us think that it is vitally important to explore the 
opportunities that this legislation will provide.
    The dramatic increases in domestic oil and natural gas 
production could not have come at a better time for the 
Nation's struggling economy. As a result of America's oil and 
gas boom, energy is one of the very few sectors of the economy 
where we have seen substantial job growth in recent years, and 
these jobs pay very well. In fact, it has been reported that 
graduates of the South Dakota School of Mines and Technology 
are commanding higher salaries than graduates from some of the 
business programs at Harvard.
    The Energy Information Administration and others predict 
continued increases in domestic oil and gas output in the years 
ahead, and that translates into growing demand for qualified 
employees to produce that energy. Many of the Nation's fastest-
growing State economies are energy-producing States, and that 
is not likely to change any time soon. People with the right 
training will be needed in even greater numbers, from the 
geologists and engineers who use state-of-the-art technology to 
find the oil and natural gas, to those who drill and operate 
the wells, to those who design and build and maintain the 
specialized equipment that makes it all possible.
    And beyond the oil and gas boom, there are still jobs 
related to coal, nuclear, and many other sectors relating to 
energy. There are over 800,000 jobs in the U.S. supported, for 
example, by the coal mining industry alone.
    There is no doubt that the energy industry offers promising 
careers for young people, and we need to make certain that 
these opportunities exist for all Americans, including African 
Americans, Hispanic Americans, and women, and that is what H.R. 
4526 does.
    And just from my personal view, we certainly want to focus 
on those groups, but I think it is also important that we have 
programs available for anyone who needs help economically. Some 
of those are African American, but they may be Hispanic; they 
may be Caucasian, whatever they may be. We want opportunities 
for them, and that is what this bill is all about. And I really 
look forward to the testimony of those of you on the panel 
because you have the expertise to help us get a better 
understanding of this.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    This morning's hearing focuses on H.R. 4526, the 21st 
Century Energy Workforce Development Jobs Initiative Act of 
2014. I am particularly pleased to work with my friend Bobby 
Rush, who introduced this important bill to increase minority 
participation in the rapidly expanding energy jobs market.
    The dramatic increase in domestic oil and natural gas 
production could not have come at a better time for this 
Nation's struggling economy. As a result of America's oil and 
gas boom, energy is one of the very few sectors of the economy 
where we have seen substantial job growth in recent years. And 
these jobs pay very well--in fact, it has been reported that 
graduates of the South Dakota School of Mines and Technology 
are commanding higher salaries than graduates of Harvard.
    And these are careers for the long haul. The Energy 
Information Administration and others predict continued 
increases in domestic oil and gas output in the years ahead, 
and that translates into growing demand for qualified employees 
to produce that energy. Many of the Nation's fastest-growing 
State economies are energy-producing States, and that is not 
likely to change any time soon.
    People with the right training will be needed in ever 
greater numbers--from the geologists and engineers who use 
state-of-the art-technology to find the oil and natural gas, to 
those who drill and operate the wells, to those who design and 
build and maintain the specialized equipment that makes it all 
possible, and many others. And beyond the oil and gas boom, 
there are all the jobs related to coal, nuclear, and 
renewables. There are over 800,000 jobs in the U.S. supported 
by the coal mining industry. Many of these jobs provide 
excellent salaries and opportunities for upward-mobility for 
minorities living in some of the most impoverished corners of 
our country, specifically for Native Americans. For example, 
the Chairman of the Crow Nation, the tribal Nation in Montana, 
has testified before congress that the importance of coal 
mining ``to the economy of the Crow Reservation cannot be 
overstated.'' We must remember this fact and encourage and 
develop energy jobs of all types.
    There is no doubt that the energy industry offers many 
promising careers for young people, and we need to make certain 
that these opportunities exist for all Americans, including 
African Americans, Hispanic Americans, and women. And that is 
what H.R. 4526 does. It improves upon the Federal Government's 
existing education and job training programs by ensuring that 
more women and minorities can acquire the skills needed to get 
energy industry jobs.
    Of course, I might add that these job opportunities only 
exist to the extent that we are allowed to produce energy in 
this country. For that reason, we need to remain vigilant 
against restrictive policies such as those that limit fossil 
fuel production from Federal lands. And we absolutely must 
allow coal to remain a significant part of the energy mix to 
preserve and expand coal-related jobs. The same is true of 
nuclear power, which faces numerous Federal roadblocks. In 
addition, we should support legislation that expands global 
markets for American energy, such as H.R. 6, the ``Domestic 
Prosperity and Global Freedom Act.'' Simply put, more American 
energy production equals more American jobs. Tomorrow on the 
House floor, we will be debating an energy bill that reduces 
red tape, helps to extend our energy infrastructure for greater 
access to supplies, promotes production, and most of all will 
help to expand these jobs that we refer to in H.R. 4526.
    While we pursue policies that expand the energy jobs pool, 
we also need to take steps to help minorities and women fill 
more of these positions. H.R. 4526 is a vital step forward in 
achieving this goal. I look forward to working with Mr. Rush to 
assure its passage.

    [H.R. 4526 follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. And with that, I would like at this time to 
introduce the author of the bill, Mr. Rush of Chicago, for his 
5-minute opening statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman. I want to also 
commend you for not only cosponsoring H.R. 4526, but also for 
holding this important hearing today on an issue that is a high 
priority for me and for my constituents.
    Mr. Chairman, you and your staff have been very, very 
gracious in working with my staff to make this hearing a 
reality, and I wanted to publicly express my sincere 
appreciation for your work and for your involvement, for your 
commitment. Mr. Chairman, I want to thank all the members who 
are present for taking the time out. I know there are other 
hearings going on, and their time is very precious to them, and 
their schedules are tight. I want to thank them, therefore, for 
taking the time out to be at this hearing. I want to thank all 
the participants, expert witnesses.
    As you know, Mr. Chairman, since taking over as ranking 
member of this subcommittee, one of my top priorities has been 
to increase opportunities for minorities within all sectors of 
the energy industry. We have come a long way in this regard as 
evidenced by the distinct panel of stakeholders who have worked 
with my office from the beginning on drafting this bill. While 
there is still much work to do to turn potential into reality, 
I am very pleased to see that we have some of the top minds in 
the country testifying before us today representing the Federal 
Government, representing business, the energy sector, and 
nonprofits.
    Mr. Chairman, the purpose of this bipartisan bill is to 
provide a pathway to employment for minorities and other 
historically underrepresented communities in the energy sector. 
This bill outlines a comprehensive strategy for initiating 
collaboration between the Departments of Energy, Education, and 
Labor, as well industry, schools, communities and colleges, 
universities, labor unions, workforce development 
organizations, and other stakeholders in order to engage, 
inform, train, and recruit minorities for energy jobs of the 
present and for the future.
    The fact of the matter is, and this is in the best 
interests of our constituents of energy and our national 
economy to engage women and the minority community because as 
two recent API reports that Mr. Gerard references in his 
testimony tell us over half of the workforce was in the oil and 
gas industry, specifically will retire or leave within the next 
5 or 10 years, and they will need these very same communities, 
this very same community workforce, to help replace those 
workers.
    Mr. Chairman, I applaud Secretary Moniz for his outstanding 
leadership in developing the Minorities in Energy Initiative 
following both public and private conversations we have had 
discussion on this important topic. Under the leadership or 
Director Harris, who we will hear from today, I have every 
confidence that if all of us continue to work together, we will 
see positive, tangible results in moving this agenda forward.
    Mr. Chairman, this is a very important matter. Again, I 
want to thank you for your participation. I think the American 
people owe you a sense of gratification and a sense of thanks 
because you are, indeed, in a bipartisan manner, moving a 
critical issue forward with this hearing.
    Mr. Chairman, if I have any additional time, I want to 
yield to the gentleman from Texas for whatever time I have 
remaining.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman. I will be brief and put 
my full statement in the record. I want to thank both the Chair 
and Ranking Member Rush for crafting this legislation. I am 
proud to be an original cosponsor. The industries I represent 
have complained for years about workforce shortages. In East 
Houston, Harris County, Texas, if we were able to recruit every 
journeyman electrician in the country, we would still have a 
shortage. Our economy is part of the country rapidly expanding 
because of the development of the Eagle Ford Shale in the 
Permian Basin, and our workforce in Texas, diversity is a 
reality. It is also a necessity. Recently, ExxonMobil and the 
Texas Gulf Coast Community College Consortium are addressing 
the workforce needs, and they provided funding for our 
community college, and San Jacinto College in our district is 
one of those colleges.
    In fact, the diversity in San Jacinto College actually is--
46 percent of their students that attend San Jacinto College 
are Hispanic, in those skills, computer training, electricity, 
machining, welding, pipe fitting, and other skills. Thank you, 
and I look forward to hopefully passing this bill.
    [The prepared statement of Mr. Green follows:]

                 Prepared statement of Hon. Gene Green

    Good morning. I want to thank the chairman and the ranking 
member for holding this hearing today. I want to thank our 
witnesses for coming up and testifying today.
    Today, we are here to discuss an issue that is very 
important to the district I represent. I am pleased that 
Representative Rush has crafted this legislation, and I am 
proud to be an original co-sponsor.
    For years, many of the industries I represent have 
complained of workforce shortages. In East Houston/Harris 
County, if we were able to recruit every union electrician in 
the country, we would still have a shortage.
    The economy in our part of the country is rapidly expanding 
thanks to the development of the Eagleford shale and the 
Permian Basin. We must ensure that this economic prosperity is 
shared across all of our community.
    In Texas, workforce diversity is not only a reality, it's a 
necessity. But as I've stated before, Texas is once again 
leading the charge and producing results--this time in 
workforce development.
    Thanks to efforts by ExxonMobil and the Texas Gulf Coast 
Community College Consortium, we are addressing the workforce 
needs of our industries. The Community College PetroChemical 
Initiative is a public-private partnership that is unique in 
the industry. The Consortium includes nine community colleges, 
including San Jacinto College in my district. The program 
expects to attract as many as 50,000 students and educators 
across the State over the next 5 years.
    The program will provide certification and degree programs 
in a variety of technical fields, including computer and 
electrical technology; machining, welding, and pipefitting; and 
other skills and competencies needed by the chemical 
manufacturing and refining industries.
    The composition of the student body at San Jacinto College 
overwhelming favors workforce diversity. Over 70 percent of the 
students are part-time, which means they are most likely 
working professionals that are trying to obtain education for a 
better job. Over 46 percent of the students that attend the San 
Jacinto are of Hispanic or Latino origins. Over 56 percent of 
the students are women.
    Through programs like CCPI, the industry job opportunities 
can become realities.
    I look forward to working with my colleagues on this bill 
to ensure that success like we have in East Harris County is 
duplicated nationwide.

    Mr. Whitfield. Thank you very much, and our chairman of the 
full committee, Mr. Upton, had a conflict and is not here. Is 
there anyone else on our side of the aisle that would like to 
be recognized for a comment? If not, at this time, I would like 
to recognize the gentleman from California, Mr. Waxman, for a 
5-minute opening statement.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman. I am very pleased for 
holding this hearing on this bill authored by the ranking 
member of this subcommittee, the 21st Century Energy Workforce 
Development Jobs Initiative. Mr. Rush's bill addresses a major 
challenge for our Nation to ensure that all Americans and 
especially minorities have the skills they need to carry out 
the jobs available today and in the future. Specifically, this 
bill aims to prepare minority workers for the wide-ranging job 
opportunities in the energy sector.
    The U.S. energy industry is in a period of transformation 
and growth. Steady advances in critical energy technologies and 
the resulting cost reductions are generating new businesses and 
job opportunities across the country. These jobs are being 
filled by workers with a range of skills and educational levels 
from solar panel installers and wind turbine technicians, to 
engineers and line workers in electric vehicle factories. Mr. 
Rush's legislation aims to ensure that these opportunities 
emerging throughout the energy industry will also be available 
to minority workers and minority-owned businesses.
    Mr. Rush has been a longstanding and tenacious champion for 
helping minority communities gain access to the full range of 
career opportunities in the energy field, particularly clean 
energy jobs. In 2009, in the Waxman-Markey Energy Bill, Mr. 
Rush successfully pushed to include funding for the proposed 
``low-income community energy efficiency program.'' This 
program would have provided financing for minority-owned 
businesses and community organizations to deliver energy 
efficiency and renewable energy improvements to low-income 
communities.
    I strongly supported this effort. It would have created 
good, clean energy jobs for local residents while also helping 
low-income families save money on the energy bills through 
energy efficiency upgrades.
    I am also proud to support Mr. Rush's most recent proposal. 
This bill would launch a comprehensive new program to create a 
pathway starting at the elementary school level for minorities 
to work in energy-related jobs. It would facilitate a 
coordinated effort among the energy industry, educational 
institutions, and Government, labor unions, to help bridge the 
gap that now exists between the many minority workers and the 
job opportunities in the energy industry.
    This is an area of tremendous opportunity if we can prepare 
workers with the skills they need. We are in the midst of an 
energy revolution, and some of the most exciting developments 
are occurring in clean energy. Since 2010, the solar industry 
has grown at a breakneck pace and added 50,000 new jobs across 
America. In 2013, there were over 142,000 workers throughout 
the solar industry supply chain in the United States. Nearly 
half of these were in solar installation jobs which earn over 
$23 per hour on average. These are good living wage jobs that 
cannot be outsourced.
    The wind industry has also grown rapidly in the United 
States over recent years. Texas ranks first in the country for 
wind power, installation, and wind industry jobs, while 
California ranks second. The wind industry has injected more 
than 11 billion into California's economy, and 23 billion into 
the Texas economy. These investments have created jobs and a 
stronger, more diverse tax base.
    And as States move forward to implement the EPA's Clean 
Power Plan in coming years, job opportunities in the clean 
energy sector will expand even more rapidly, but creating jobs 
isn't enough. We also have to make sure that all Americans have 
the training and skills they need to compete for these jobs. 
Congressman Rush has put forward a well-developed bipartisan 
proposal to ensure that minorities, too, will benefit from 
these new jobs in energy. Today's hearing will provide valuable 
information on how this program can help translate 
opportunities into real jobs for minority workers.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. Whitfield. Thank you, and that concludes our opening 
statements, so at this time, I will be calling on the members 
of the panel to give their opening statements.
    And the first witness that we have this morning is Ms. 
LaDoris Harris, who is the Director of the Office of Economic 
Impact and Diversity at the Department of Energy, and, Ms. 
Harris, you will be recognized for 5 minutes for your opening 
statement, and thanks for being with us.

  STATEMENTS OF LADORIS HARRIS, DIRECTOR, OFFICE OF ECONOMIC 
 IMPACT AND DIVERSITY, DEPARTMENT OF ENERGY; HARRY C. ALFORD, 
 PRESIDENT AND CEO, NATIONAL BLACK CHAMBER OF COMMERCE; CASEY 
    BELL, SENIOR ECONOMIST, AMERICAN COUNCIL FOR AN ENERGY-
    EFFICIENT ECONOMY; PAULA R. JACKSON, PRESIDENT AND CEO, 
 AMERICAN ASSOCIATION OF BLACKS IN ENERGY; AND JACK N. GERARD, 
        PRESIDENT AND CEO, AMERICAN PETROLEUM INSTITUTE

                  STATEMENT OF LADORIS HARRIS

    Ms. Harris. Thank you, Chairman Whitfield, Ranking Member 
Rush, and the distinguished members of the committee. I am 
pleased to be before you today to discuss the status of the 
Department of Energy's Minorities in Energy Initiative and the 
Workforce Development Initiatives.
    I was nominated by the President as the Director of the 
Office of Economic Impact and Diversity at the United States 
Department of Energy and confirmed by the U.S. Senate on March 
29 of 2012. As an electrical engineer by training, I bring 30 
years of global private sector management and leadership 
experience in the energy sector. Before coming to the 
Department of Energy, I was cofounder, president and CEO of 
Jabo Industries, a minority, woman-owned management consulting 
firm concentrating in the energy, information technology, and 
healthcare industries. I also served as an executive as General 
Electric and held a number of leadership positions at GE Energy 
and industrial systems businesses.
    Prior to GE, I was an officer and vice president of 
operations for production for ABB Services, Inc. I spent 12 
years as a field service engineer and services manager for 
Westinghouse Electric Company.
    The Office of Economic Impact and Diversity at the 
Department was established in 1979, and with a director 
appointed by the President and confirmed by the Senate to 
advise the Secretary on the impact of energy policies, 
regulations, and other actions of the Department on Minorities 
and Minority Business Enterprise to ensure minorities can 
participate fully in the Department's energy programs.
    The policy includes insurance that DOE can provide 
minorities with information, technical assistance, support, 
loans, business analysis, and targeted outreach. In 2013, as I 
mentioned earlier, Secretary Moniz launched the Department of 
Energy's Minorities in Energy Initiative, and this initiative 
was to engage the minority communities in the energy sector. 
Because of my office's mandate and successful history working 
with minority communities, Secretary Moniz asked me to task 
this initiative. The initiative is a public-private 
collaboration aimed at increasing minority participation in the 
energy sector through engagement in science, technology, 
engineering and math, education, and workforce development, 
energy economic development, as well as climate change. Through 
outreach, industry partnerships, and industry data analysis, we 
seek to harness the richness of America's diversity to actually 
develop and sustain talent. One of the areas for timing for 
this initiative could not be better with the fact that energy 
is the third largest industry in the U.S.
    MIE, as it is referred to, would empower and prepare 
businesses, communities, schools, and individuals to benefit 
from the technical, financial assistance, and workforce, and 
energy literacy as well.
    Through the initiative we have sustained a platform which 
should include a number of ambassadors across the industry as 
well as those in the education and economic industries as well. 
Some of the leading members of this, or ambassadors include the 
Ranking Member Bobby Rush, Senators Mary Landrieu and Lisa 
Murkowski, Congresswoman Eddie Bernice Johnson, Congressman Joe 
Garcia. Also on the panel with us today, Jack Gerard is also 
one of our ambassadors. We have a few ambassadors as well that 
has been key, past former EPA administrator, New Jersey 
Governor Christine Todd Whitman is also one of our ambassadors.
    If we look at the areas that we are focusing in for STEM 
education and workforce development, we are working very 
closely with the Obama administration even in My Brother's 
Keeper Initiative that we want to focus on as well. One of the 
areas that we really are looking forward to with MIE is not 
only in working with some of the minorities serving 
institutions which support the educational outreach that we 
have.
    One of the second areas that we focus on, clearly the 
economic impact development, because of the $6 trillion 
industry that we have in energy, we are making sure we engage 
minority businesses as well. In this area we have a MOU, for 
example, with the Department of Commerce, with minority 
business development agency that we will establish in 2013, and 
collectively we are working very closely with the businesses to 
support this.
    And finally in the climate change area, we have engaged 
with the--aligned our focus with President Obama's Clean Action 
Plan, and we support all the necessary investments for clean 
energy technology.
    So in conclusion, we will be looking forward to working 
with the committee and all that you have done in support of the 
Department's Minorities in Energy Initiative, focusing on your 
bill for energy workforce development. Thank you very much.
    [The prepared statement of Ms. Harris follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Thank you, Ms. Harris.
    And at this time, our next witness is Mr. Harry Alford, who 
is the President and CEO of the National Black Chamber of 
Commerce. Mr. Alford, thank you for being with us today. We 
look forward to your testimony. You are recognized for 5 
minutes.

                  STATEMENT OF HARRY C. ALFORD

    Mr. Alford. Chairman Whitfield, Minority Leader Rush, and 
distinguished members of the committee, thank you for inviting 
the National Black Chamber of Commerce to participate in this 
most important hearing. The NBCC proudly represents the fastest 
growing segment of the American economy, black-owned 
businesses. When we were incorporated in May of 1993, the U.S. 
Census Bureau stated that there were 300,000 black-owned 
businesses doing $30 billion in sales annually. Today the U.S. 
Census Bureau states that there are 1.9 million black-owned 
businesses doing over $137 billion annually. This fantastic 
growth has swelled our membership and has made us the largest 
black business association in the world. We have over 170 local 
chapters of which 70 percent are located throughout the United 
States. Our database of black-owned firms exceeds 60,000 within 
the United States.
    Likewise, there has been an unprecedented growth in this 
country's energy industries in the last decade. The development 
and production of natural gas and oil has increased 
dramatically with the widespread use of hydraulic fracturing. 
The U.S. has moved from being a country that imports natural 
gas to one that has the capacity to export it. In fact, natural 
gas production in the U.S. is expected to grow increasing 56 
percent between 2012 and 2040. This type of growth directly 
translates into jobs, often well-paid jobs with Fortune 500 
companies. In fact, according to the U.S. Energy Information 
Administration, jobs in the oil and gas industries have 
outpaced all others in the private sector. Without a doubt, 
minorities should be competing for and landing these jobs.
    According to a March 2014 IHS study, the U.S. oil and gas 
industry and the petrochemical industry together employed a 
total of 1.2 million people in 2010. Of those jobs, African 
American workers held 98,000 of them in 2010, accounting for 
8.2 percent of the total employment. According to the same IHS 
study, there will be a total of 1.3 million direct job 
opportunities over the period of 2010 to 2030 in the oil and 
gas and petrochemical industries. Of those job opportunities, 
IHS projects that African American and Hispanic workers will 
account for nearly 408,000 jobs, or 32 percent in 2030. IHS 
also estimates that African American and Hispanic workers are 
projected to make up nearly 20 percent of the management, 
business, and financial opportunities through 2030.
    One of the most significant ways that we as a minority 
community can take advantage of the employment boom and energy 
sectors is to support local development of energy-related 
projects and development within our local communities. A good 
example of such a partnership is the Mississippi Power 
Company's construction of a power plant in Kemper County, which 
began in 2010. The power plant will have carbon capture and 
sequestration technology, providing for lower emissions 
generation. The facility is projected to create more than 
12,000 construction jobs and 1,000 permanent jobs, generating 
more than $75 million in State and local tax revenue. The 
Kemper facility has contracted with 22 minority-owned 
businesses for $96.7 million in business opportunities.
    In summation, the purpose of this bill is to provide a 
pathway to employment for minorities and other historically 
underrepresented communities in the energy sector. This bill 
outlines a comprehensive strategy for initiating collaboration 
between the Department of Energy, Education, and Labor, as well 
as industries, schools, community colleges, universities, labor 
unions, workforce development organizations, and other 
stakeholders, in order to engage, inform, train and recruit 
minorities for the energy jobs of the present and future.
    The Secretary of Energy shall: Make the objective of 
educating and training minorities and other workers for the 
21st Century jobs a national priority; collaborate with the 
Secretary of Education or his designee and the Secretary of 
Labor or his designee to develop guidelines for educational 
institutions at all levels, including K through 12, community 
colleges, undergraduates, graduate, postgraduate universities, 
that would help the energy workforce in the 21st century; work 
with organized labor and community-based workforce 
organizations to help identify candidates, including from 
historically underserved communities such as minorities, women 
and veterans, and to enroll into training and apprenticeship 
programs, leading to full union membership. I commend 
Representatives Rush, Whitfield, and Johnson on their 
introduction of this important legislation. The bill provides 
for an overall strategy to connect representatives from 
industry, education, and Government and other stakeholders in 
an effort to engage, inform, train, and recruit minorities for 
the energy jobs of the present and the future.
    With these types of efforts, we can educate, train, and 
employ African Americans and other minorities so that they too 
can enjoy the economic benefits of the American energy boom. 
Thank you.
    [The prepared statement of Mr. Alford follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Thank you, Mr. Alford.
    And our next witness is Ms. Casey Bell, who is a senior 
economist with the American Council for an Energy-Efficient 
Economy. Thank you for being with us, and you are recognized 
for 5 minutes.

                    STATEMENT OF CASEY BELL

    Ms. Bell. Chairman Whitfield, Ranking Member Rush, members 
of the committee, thank you for the opportunity to speak to you 
today about the need for workforce development and training in 
energy and related industries. My name is Casey Bell. I am a 
senior economist with the American Council for an Energy-
Efficient Economy, commonly known as ACEEE. I am testifying on 
behalf of Jim Barrett, our chief economist. ACEEE is a 
nonprofit research institute dedicated to advancing energy 
efficiency. For over 30 years, we have been a trusted source of 
information on end use efficiency technologies and policies. I 
am here to talk to you about the training and workforce 
development needs for the energy efficiency industry.
    First, just to make sure we are all talking about the same 
thing, I will spend a moment defining energy efficiency. Though 
often conflated with energy conservation, efficiency is 
distinct. It is not about turning down the thermostat and 
putting on a sweater or otherwise doing without. Instead, 
efficiency is about doing more with less, going further on a 
gallon of gasoline, keeping your home warm while using less 
fuel, using precision timing to produce high quality products 
while cutting costs.
    Unlike other energy sources, you can't touch, smell, or see 
energy efficiency. You can't burn it or put it on the electric 
grid. That makes efficiency a bit different than other energy 
sources. However, the important thing to keep in mind about 
energy is that is no one really consumes energy for its own 
sake. We don't necessarily buy gasoline because we like 
gasoline. We buy it because we need to go places, and our cars 
use gasoline to take us there. We don't eat electricity, but we 
need it to store and prepare food. We don't consume energy per 
se, rather we consume energy services, mobility and access, 
heating and cooling, the ability to use our computers for work, 
and television to relax.
    So while efficiency doesn't deliver energy, it delivers 
energy services, and it is just as important to the economy as 
physical energy sources are, perhaps more so.
    In 1970, the U.S. GDP, the value of all the goods and 
services we produce, was a little over $5 trillion in today's 
terms. By 2012, that had more than tripled to over 16 trillion, 
adjusting for inflation. In 1970, our economy consumed about 68 
quadrillion BTUs worth of physical energy. By 2012, that grew 
to just under 100, an increase not of 300 percentage like GDP, 
but of only 41 percent. If we consumed energy in 2012 the same 
way we consumed it in 1970, we would have consumed over 220 
quadrillion BTUs. What this means is that over that time frame, 
the majority of the increase in demand for energy was not met 
by increasing the supply of energy, but rather by energy 
efficiency, as shown in the figure 1 in Jim's testimony.
    Without energy efficiency, energy consumption would be more 
than twice as high as it is today. By that measure efficiency 
has been the single most important fuel of the past 40 years. 
Not only is energy efficiency a critical resource for economic 
growth and productivity, it is an important source of 
employment. Unfortunately, just as efficiency itself can't be 
seen, the energy efficiency industry is also difficult to 
identify.
    Unlike industries such as oil and gas extraction, 
electricity generation, or automobile manufacturing, there is 
no clearly delineated efficiency sector. Though difficult to 
identify and measure, energy efficiency production and energy 
efficiency jobs are spread throughout the economy. In the 
manufacturing sector, energy efficiency plays an important role 
in developing new, lower cost, and more efficient appliances, 
cars that get better gas mileage, and improving industrial 
processes that allow us to make more of these and other 
priorities with less energy than ever. Investing resources in 
making homes and offices more energy efficient creates jobs in 
construction and the industries that make the equipment and 
materials needed for the job.
    As a simple measure, every $1 million spent on energy as a 
whole supports about four full-time jobs directly and through 
the supply chain. Investing that same amount of money in the 
construction sector to make homes and offices more efficient 
would support about 12 jobs, not even taking into account the 
beneficial impacts of increased productivity, reduced 
pollution, and increased competitiveness. An analysis ACEEE 
performed of the Energy Savings and Industrial Competitiveness 
Act of 2013, found that the investment in efficiency that bill 
would drive would support a net increase of over 100,000 jobs 
per year, in addition to the jobs the energy efficiency 
investments also create.
    We also have an analysis of EPA's Clean Power Plan that 
indicates by 2030, the rule could induce over $625 billion of 
investment in various energy efficiency industries and 
behaviors and create an average of over 400,000 jobs per year, 
both directly and throughout the economy.
    We expect increasing growth to necessitate a wide range of 
training and educational needs. Community colleges and union-
based training programs in particular can play a central role 
in providing hands-on vocational and practical training in a 
number of skilled and semiskilled occupations directly related 
to the energy efficiency. I am not an expert on designing 
training programs, although my colleague has had the 
opportunity to tour skilled training programs in plumbing, pipe 
fitting, heating, air-conditioning, and related systems with an 
eye on increased energy efficiency. To the extent that people 
imagine these occupations to be simple or unskilled, we can say 
that they are wrong. In many cases to do this work right 
requires highly specialized skills and well-designed, targeted 
training programs, neither of which happen by accident.
    I will leave it to those with more knowledge and expertise 
to discuss how to deliver that training to traditionally 
underserved communities, but I will state what seems obvious, 
that participation in these and other growing energy industries 
requires participation in appropriate training and education 
programs. To the extent that the existing workforce is not 
representative of our working age population as a whole, that 
disparity is likely to persist absent focused efforts such as 
those proposed in the 21st Century Energy Workforce Development 
Jobs Initiative Act of 2014 we are discussing today.
    Thank you again for the opportunity to speak, and I am more 
than happy to answer any questions you may have.
    [The prepared statement of James P. Barrett follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Thank you very much. Our next witness is 
Paula Jackson, who is the president of the American Association 
of Blacks in Energy, and thanks for being with us, and you are 
recognized for 5 minutes, Ms. Jackson.

                 STATEMENT OF PAULA R. JACKSON

    Ms. Jackson. Good morning, Chairman Whitfield, Ranking 
Member Rush, and all the members of the committee. Thank you 
for giving me the opportunity to testify before you today. My 
name is Paula Jackson. I am the president and CEO of the 
American Association of Blacks in Energy. We are a national 
association of energy professionals founded and dedicated to 
ensure the input of African Americans and other minorities into 
the discussions and developments of energy policy, regulations, 
R&D technologies, and environmental. Our membership of 1,500 
energy professionals who work in every sector of the industry 
are committed to building a cadre of young African American 
leaders for this industry.
    The association fully supports H.R. 4526, and for more than 
35 years, we have been working diligently to educate and inform 
our communities about the opportunities in the energy industry. 
While we have had some success, we recognize that there is a 
lot more to be done. This bill brings together all the key 
stakeholders to develop a curriculum and framework which will 
significantly move the needle at a time where our Nation's 
economy is growing, and with that growth, more opportunities 
become available.
    Changes in the industry from grid modernization, higher 
demand for electricity, increased domestic oil and natural gas 
resources, an aging workforce, and adoption of new technology, 
along with the changing demographic in this country, has made 
the industry look very closely at its workforce pipeline. In 
response, the electric and natural gas industry formed the 
Center For Energy Workforce Development, which is an 
organization that works with utilities to develop solutions for 
the coming workforce shortage in the utility industry. And the 
oil and natural gas industry has made workforce pipeline, and 
more specifically, inclusion of women and minorities in the 
workforce a priority as well.
    As you can imagine, for an organization like mine, this is 
great news. We aren't spending time trying to convince the 
industry to be more inclusive. Instead we are spending time 
looking for opportunities to collaborate and address this 
problem. Increasing the participation of minorities has been at 
the core of our work for 37 years, and as an organization, I 
want to share with you some of the things that we have been 
doing to move things forward. Our first is our scholarship 
program.
    Through the AABE scholarship program that was established 
more than 30 years ago, we encourage young people to study in 
the STEM disciplines and pursue a career in energy. As a result 
of that work, more than a million dollars in scholarships has 
been granted to students around this country. And as the 
industries needs have changed, our program has changed. One 
change is that we have expanded this program to include 
students who are going to major in business. The other change 
is that some students will go to 2-year institutions as opposed 
to 4-year institutions, and so we are really trying to find 
ways to take advantage of these opportunities and bring 
students where they are into this industry.
    Our chapters offer specific programs and innovative 
collaborations to get students to think about STEM and this 
industry. For example, our New York chapter has partnered with 
NYU Poly, Con Ed, National Grid, and they offer a Summer Energy 
Academy every year for middle school students. That 6-week 
program introduces students to careers in the industry by 
having them do research and develop their own energy projects. 
And just this past weekend I had the opportunity to visit with 
a group of high school students who were working in Atlanta on 
developing an energy app for our association. It provided a 
wonderful opportunity to talk with students who were thinking 
about video game design as energy for an opportunity for those 
types of skills.
    Every October we have Black Energy Awareness Month where 
all of our chapters offer interactive learning activities for 
local students to broaden their knowledge about the energy 
industry. And then we do community outreach. This year in 
partnership with Hispanics in Energy, the DOE's MIE initiative, 
and API, we have kicked off an Energize series: A Community 
Conversation About Energy, Opportunity, and Workforce Readiness 
in Diverse Communities. And this eight-city tour has brought 
together industry leaders, community stakeholders, 
policymakers, and others to discuss opportunities in industry 
and the challenges which make accessing these opportunities 
difficult.
    To date, we have hosted conversations Bakersfield, Canton, 
Chicago, Denver, Las Cruces, and Philadelphia. Tomorrow we will 
be in Charlotte, and next month in Detroit.
    And finally, as an association we are always looking for 
opportunities to collaborate with other organizations. Most 
recently we signed an MOU to belong to an organization called 
Changes, which is the coalition of Hispanic, African, and 
Native Americans for the next generation of engineers and 
scientists. And through that collaboration, we are not only 
able to better understand the challenges that minority students 
face in pursuing STEM disciplines, but we are able to educate 
those people, those academics and others, about the 
opportunities that the industry offers.
    And so what I would like to say is that outreach, 
scholarship, and collaboration are key tenets to AABE's work in 
increasing the participation in this industry. We know the 
industry is a driver to our economy, and working in this 
industry can change lives and move families into the middle 
class. And this legislation is critically important to ensure 
that all Americans will have the opportunity to participate.
    And finally, I would just like to say on a personal note 
thank you for your leadership and thoughtfulness around this. I 
started in this industry 25 years ago, and as a young African 
American woman who was a marketing major and fell into this 
industry, I applaud you for thinking about how we can direct 
students more so that they don't fall in like I did, but that 
it is a clear choice. I look forward to your questions.
    [The prepared statement of Ms. Jackson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Thank you very much, Ms. Jackson.
    And our next witness is Mr. Jack Gerard, who is the CEO of 
the American Petroleum Institute. Thanks for being with us 
today, and you are recognized for 5 minutes.

                  STATEMENT OF JACK N. GERARD

    Mr. Gerard. Thank you, Mr. Chairman, and Ranking Member 
Rush, and other members of the subcommittee. It is a real 
pleasure to be with you this morning. As mentioned, I am Jack 
Gerard, the president and CEO of the American Petroleum 
Institute. We represent all facets of the oil and natural gas 
industry in the country which supports about 9.8 million U.S. 
jobs and constitutes about 8 percent of our domestic economy. I 
am pleased today to be here with many of our partners, with 
Paula and Harry and Dot, and I might say our friends, as we 
look at these issues more closely and figure out a better way 
to serve the American people generally, particularly in light 
of the American energy renaissance that we are experiencing 
today.
    API's 600 members make up all aspects of the oil and gas 
industry from the large integrated companies as well as 
exploration and production, refining, marketing, pipeline, 
marine businesses, all the way down to our service and supply 
firms. Our extensive network of over 30,000 vendors, suppliers, 
and contractors create and support jobs in every community in 
the country, by and large, and in most congressional districts.
    The unprecedented opportunity created by America's 21st 
century energy renaissance, which is a direct result of 
technological advancements in the oil and gas industry, is a 
unique opportunity for all Americans. If we seize this moment 
in our history and work together on energy policies that 
promote the safe and responsible development of our Nation's 
enormous energy resources, our industry will not only create 
and support millions of well-paying jobs far into the future, 
but also make America a global energy superpower for many 
generations yet to come.
    To better understand the scope and reach of this economic 
opportunity our industry could provide the Nation, API 
commissioned IHS Global to examine potential job opportunities 
through 2030. The study has been cited by other members of the 
panel here this morning. The report, which is entitled, 
Minority and Female Employment in the Oil & Gas and 
Petrochemical Industries estimates that over 950,000 jobs, job 
opportunities, could be created by 2020 and that nearly 1.3 
million job opportunities through 2030 across the country in 
just our oil and natural gas and petrochemical industries. 
These are good-paying careers that pay well above the national 
averages.
    The jobs the oil and gas industry creates will require 
people with a range of skill sets, training, and educational 
achievement levels, meaning that the opportunities we offer are 
not limited to a few highly skilled or specialized workers 
within a particular region of the country. What the report 
makes clear is that this Nation will not only be able to 
fulfill its potential as a global energy leader, but that we 
will not be able to fulfill our potential without more hands on 
deck, particularly minority and female workers.
    The report estimates that there are nearly 408,000 job 
opportunities that could be filled by African American and 
Hispanic workers, with 185,000 of those being filled by women. 
African American and Hispanic workers are projected to make up 
nearly 20 percent of new hires in management, business and 
financial jobs through 2030. These estimates are based on 
current and projected trends and factors such as labor, 
workforce participation rates, educational attainment, and 
should be considered a floor, not a ceiling, for job 
opportunities.
    In order to be competitive for all 1.3 million jobs, 
certain education and workforce training must occur. That is 
why we applaud the leadership, Mr. Rush, Chairman Whitfield, 
and others, in introducing H.R. 4526, the 21st Century Energy 
Workforce Development Jobs Initiative Act of 2014, and I want 
to thank other members of the subcommittee and other members of 
the House who have already cosponsored this important 
legislation.
    H.R. 4526 will help achieve our shared goal of fuller 
participation by more Americans in the 21st Century American 
energy renaissance by streamlining the coordination between the 
various sectors within the energy industry and the Federal 
Government, creating guidelines for training, encouraging STEM 
education that will expand the pool of qualified workers at all 
levels, and by working with State energy offices to provide 
high school counselors and regional job opportunities. The bill 
will also enhance a productive working relationship between the 
North America building trade unions who have been an invaluable 
partner with us in the oil and gas industry.
    We now have a labor management committee of 15 unions that 
we work with often to create job opportunities and specifically 
training opportunities to prepare this workforce of the future.
    Put simply, the bill helps bring our Nation closer to the 
day when the tremendous job creation and economic growth 
brought about by America's vast energy resources are no longer 
projections, but are, indeed, reality. We strongly support the 
bill. We appreciate the bipartisan leadership, and we look 
forward to working with you on it. Thank you.
    [The prepared statement of Mr. Gerard follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Thank you very much, Mr. Gerard. We 
appreciate the testimony of all of you.
    And at this time, I would recognize myself for 5 minutes of 
questions.
    Ms. Harris, as the Director of Economic Impact and 
Diversity, you are already working in this area of trying to 
encourage opportunities for minorities in the fields of energy. 
Has your Department had the opportunity to review this 
legislation in very much detail at this point?
    Ms. Harris. Yes, we have.
    Mr. Whitfield. And do you all support it, or do you have a 
process in which you make a determination that you will 
formally support a piece of legislation?
    Ms. Harris. The Department has not taken a position on the 
legislation, but I can say that is appreciation from the 
Department with the Ranking Member Rush's leadership and this 
incredible, important topic for all of us. The goal and 
objectives of the legislation are very much consistent with 
what the Department focuses on, particularly with a mission of 
minorities in energy. Having congressional engagement at the 
highest level such as what you have done is very important to 
the Department.
    Mr. Whitfield. OK. And from your practical experience from 
where you are working now, you view that this would be quite 
helpful to you in encouraging more minorities in the energy 
sector?
    Ms. Harris. This bill will, for sure, support minorities in 
the energy sector, as we talked about earlier with some of the 
other panelists, where we have them in this country, we have to 
have participation by all; and with the growth of minorities 
for the demographics of this country, we actually have to 
support all women, minorities, to participate in order to 
support the energy sector.
    Mr. Whitfield. I was just curious. You have your degree in 
electrical engineering.
    Ms. Harris. Yes.
    Mr. Whitfield. And there are certainly a lot more men in 
engineering than women, but as a young girl growing up, how did 
you become interested in electrical engineering?
    Ms. Harris. Actually it was a field trip I took in my tenth 
grade class. I was planning on being a English teacher like 
many of my siblings. When I took this field trip to Savannah 
River, which is actually one of our national labs, and it was 
told to me how important it was opening for women, minorities, 
the money, the travel, and all those things that a young high 
schooler would be interested in. So as a result, I actually 
switched over and became interested. Went to the University of 
South Carolina as an engineer, and was the first African 
American woman to graduate from the Electrical Engineering 
Department at the University of South Carolina. So I have loved 
it ever since.
    Mr. Whitfield. And how old were you when you took that 
trip?
    Ms. Harris. I was 10th grade, so what, that made me----
    Mr. Whitfield. So up until the 10th grade, you were going 
to be an English teacher and made the switch.
    Ms. Harris. Yes.
    Mr. Whitfield. That is encouraging.
    Ms. Harris. Actually it was my chemistry teacher, Ms. 
Crumm. I will never forget her.
    Mr. Whitfield. She encouraged you.
    Ms. Jackson. Yes. That is why teachers are so important.
    Mr. Whitfield. Absolutely. So, Ms. Jackson, you said that 
your organization had actually reviewed the legislation. You 
actually support it?
    Ms. Jackson. Yes.
    Mr. Whitfield. How old is your organization?
    Ms. Jackson. Thirty-seven years.
    Mr. Whitfield. Who started it?
    Ms. Jackson. It was started by a gentleman named Clark 
Watson out of Denver, Colorado, and incorporated in Colorado in 
1977, and then in DC in, I think, 1980.
    Mr. Whitfield. Mr. Gerard, you touched on this, and, in 
fact, all the witnesses touched on it, about the tremendous 
opportunities that we do have in energy because of the shale 
finds and the changes in efficiency and renewables and 
everything else. It is really a dynamic sector. Do you all have 
programs already in which you work with minorities to encourage 
participation in the sector?
    Mr. Gerard. We do, Mr. Chairman. In fact, we are ramping 
those up in collaboration with Paula, with Dot, with Harry and 
others, as we go around the community, that was referenced 
earlier, what we call our Energize program. We have got an 
eight-city tour. We just agreed to add two more cities to that, 
where we are literally going into these areas, and Mr. Rush is 
well aware of this. We did one in Chicago, where we go in and 
we talk about these opportunities, hopefully the things that 
inspired Dot to go into electrical engineering, and we as an 
industry go in. We bring the community together. We educate 
around the industry and the job opportunities. We bring our 
member companies in where they can sit up and talk directly 
with individual students as well as others.
    We have a few other things we are doing. For example, we 
have recently launched a portal that is a bilingual portal in 
Spanish and English. It now has over 1,000 companies, community 
colleges, institutions, et cetera, where individuals can go 
online and look at the area where they live and find 
opportunities within the oil and gas industry.
    So we are taking this very seriously, and I hope you see by 
the report that we have put out now that we see this as key to 
the changing demographic in the country, not only the workforce 
turnover you mentioned earlier where we will see close to 50 
percent of that workforce turn over in the next 10 years, but 
the new job creation as part of that 1.3 million number. Six, 
700,000 of those are new jobs. So we have got to prepare that 
workforce.
    The last thing I would just say is when you look at that 
1.3 million, about 63 percent of those fall in what we would 
call the traditional blue collar areas. So one of the beauties 
of the oil and gas industry is we span the entire continuum 
from the highest trained, highest skilled Ph.D.s, across the 
front to skilled, semiskilled, et cetera. So we have 
opportunities across the entire country, across our regions, 
and we want to make a big push, particularly in the minority 
community now, to train that workforce for the future.
    Mr. Whitfield. Well, thank you. And my time has expired, so 
at this time I will recognize Mr. Rush for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman. Mr. Alford, we 
have talked a lot about jobs and the relation to the energy 
sector, but we don't spend enough time talking about business 
opportunities, and your organization is comprised of millions 
of business in the Nation. What opportunities can you foresee 
if this bill were to pass for business expansion and business 
creation for minorities and women?
    Mr. Alford. Great opportunities. The National Black Chamber 
of Commerce works pretty well with the oil and gas industry and 
coal. We have partnerships with Exxon, Chevron, Marathon, and 
others. We look at growth and that our strong suit is 
engineering and construction amongst our membership which 
applies to at the oil industry, the energy industry. So I 
think, and I am certain that the opportunities are there, the 
man is there, and what we have to do is match our talent with 
these opportunities.
    I know one of the largest construction companies in the 
country, their CEO told me he would hire graduates from Prairie 
View and Tuskegee Institute without interviewing them. The 
demand for them was so great. We talked about STEM, Science, 
Technology, Engineering and Math. HBCUs were doing that before 
it was cool. All the A and M colleges and universities provide 
product out there, and I think that it would behoove us to beat 
the drum and let everybody know that the talent is there. Let's 
match it with opportunities.
    Mr. Rush. Director Harris, give us a graphic in terms of 
how you foresee--if this bill were to become law--how do you 
foresee the Department of Energy and your focus, how do you see 
that really operating? How would that impact your day-to-day 
operations at the Department of Energy?
    Ms. Harris. My office in particular, which is focused on 
minorities in energy, we look at everything from community 
impact, business development, as well as educational support. 
So this bill would clearly be in parallel with a lot of things 
that we do in concert already. It would allow us to reach more 
of those communities, more of those students, and more of those 
businesses. We work in collaboration with other agencies, of 
course, and it will feed of course into the support we get from 
the Department of Commerce, for example, Department of Labor. 
It would simply augment and support and further develop what we 
are currently doing, which is important, because we all have to 
do so much over the next few years for all of us to catch up 
with the demand for the energy industry.
    This industry, 6 trillion, as I mentioned earlier, is what 
is seen across the globe for energy development. If we try to 
hire every engineer from not only minority-serving institutions 
or even the majority schools, it is going to be a fight for 
this country just to be able to catch up, so it would be 
critically important to supporters.
    Mr. Rush. Mr. Gerard, you and I have had a number of 
conversations throughout the few years that we have known each 
other, and your report was very insightful, pivotal, and I 
enjoyed reading it, even when I am ready to go to bed. I like 
to read it and just imagine that----
    Mr. Gerard. I will send you another copy if you need--I 
will produce another one and let you read it.
    Mr. Rush. All right. Can you discuss with this subcommittee 
the risk of the energy sector? And if we don't proactively 
train and prepare the 21st century energy workforce, I mean, 
what is at stake? What are we risking by not implementing the 
spirit and the tenets of this bill? What is at stake?
    Mr. Gerard. First of all, Mr. Rush, I think it is a great 
question. We need to think about it in a broader context as 
well. Let me suggest there is probably at least two dimensions 
we ought to think about in terms of risk. The first one is 
where we position ourselves in the global economy and 
geopolitics of the world today. It is fascinating when you see 
the various unrest around the world, you can find underpinning 
a lot of that conversation to be tied to energy. We are in a 
very unique opportunity now as a Nation that we have never been 
in before. We have moved from scarcity to abundance literally 
overnight.
    And by doing that we have got to catch up with that mind 
set and actually move this quicker, so I would suggest the 
first risk is a global risk as a Nation. We are now the world's 
number one natural gas producer. No one would have predicted 
that 5 years ago. Some have said we are already there. Others 
believe we are about to be the world's number one oil producer, 
surpassing Saudi Arabia.
    So when you look at what is going in Russia; you look at 
what is going on the Middle East; you look at our European 
friends. I was at an event over the weekend with many 
ambassadors where they are all begging me, saying you have got 
to send us your energy. You send us your energy. It changes 
that geopolitical dynamic, so I think that's the first risk.
    The second one I would suggest is just our opportunity as a 
Nation to put our people to work. If you look at the average 
compensation of the oil and gas industry today in the private 
sector, it is about 90-, $96,000 a job. That compares to 
$49,000 on average for the rest of the Nation. These are not 
just jobs. These are careers. These are what give the Dots of 
the world, if you will, a huge opportunity. So our risk is that 
if we don't engage this process, help bring our people the 
skill set and focus on the policies necessary to achieve this 
energy renaissance, as a Nation, we run the risk that we are 
going to frankly hurt our economy and hurt our people in 
addition to our world standing.
    Mr. Rush. Thank you, Mr. Chairman.
    Mr. Whitfield. Thank you, Mr. Rush.
    At this time, I would like to recognize the gentleman from 
Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman. I appreciate that 
very much. I appreciate you all being here on this important 
issue. I am going to pick on Mr. Alford and Mr. Gerard for just 
a minute and throw you a little bit of a curve ball.
    We are working on a resolution today on the floor related 
to supporting the Ukraine. And in paragraph 15 of that 
resolution, in the ``Resolved'' columns, the United States 
Congress, if it passes this resolution later today, will call 
on the Ukraine and other countries to support energy 
diversification initiatives to reduce the ability of the 
Russian Federation to use its energy exports as a means of 
applying political or economic pressure, including by promoting 
increased natural gas exports from the United States and other 
countries.
    So I would ask you, Mr. Alford, and you, Mr. Gerard: Do you 
believe that if we export our natural gas, we can have both a--
more power in the world without using our military force and 
create jobs for all Americans, including the minorities listed 
in this particular bill that we are discussing today.
    Mr. Alford. I think we need all of the above.
    Energy is the lifeblood of enterprise. And I think we 
should be the most powerful Nation in the world, which we are, 
and I pray to God that we will continue. And though we may walk 
through the valley of death, we will fear no evil because we 
are the toughest, strongest, richest Nation walking in that 
valley.
    I hope I answered that question.
    Mr. Griffith. I believe you did. Mr. Gerard.
    And I agree with you.
    Mr. Gerard, do you want to try to follow that?
    Mr. Gerard. The power in the world, the answer is 
absolutely. In terms of creating jobs, absolutely.
    Let me add a third dimension to you: Environment. There is 
a lot of talk out there. And this gets right back to the LNG 
export question. DOE has done an analysis that shows, by 
exporting our natural gas, not only do we wean some of our 
allies off other parts of the world where they would prefer to 
have more diversity of options; but it shows that for those 
that are focused on the carbon emissions, carbon emissions go 
down on a global scale.
    So not only can we achieve this domestically--we are at a 
20-year low in this country in carbon emissions. We are now 10 
percent below where we were in 2005. Why? It wasn't because of 
policy. It is because the economy came back and we are 
producing abundant amounts of clean-burning natural gas.
    So when you look at the same dynamic in the global 
economy--you look at Asia, you look at Europe, and elsewhere--
you can get the same benefits. So this is a big deal that goes 
well beyond the traditional job creation geopolitical 
alliances.
    Mr. Griffith. Well, and, I would have to agree. I think 
this is a great bill. We have to figure out how we are going to 
pay for everything, but we should be encouraging minorities to 
get into the energy sector. I believe it is a growth second for 
the United States for a long time to come.
    Does anybody disagree with that? I want to start with Ms. 
Harris. Does anybody disagree this is a growth sector for the 
United States economy, energy?
    Ms. Harris. I absolutely agree with you, for sure, yes, 
sir.
    Mr. Griffith. Yes.
    Mr. Alford. It is a game changer.
    Mr. Griffith. Ms. Bell.
    Ms. Bell. Yes. And particularly in clean technologies.
    Ms. Jackson. I agree with you.
    Mr. Gerard. It is one of the few bright spots we have in 
our current struggling economy.
    Mr. Griffith. Well, and, I would agree with that as well, 
and I believe in all of the above. Of course, I come from a 
district that produces natural gas and coal, so I don't ever 
want to pick on the folks in coal. And I am very appreciative 
in this resolution that coal is listed. It is not excluded as 
sometimes happens to be the case. And I hope that we can find 
new ways to use coal, even cleaner than we are using it today. 
It is cleaner now than it has ever been, but I think we can do 
better.
    And I hope that we will have some bright, young, energetic 
minds, including our women, Hispanics, African Americans, et 
cetera, working on that problem as well. And I appreciate you 
all being here today on this important bill. Thank you so much.
    And, Mr. Chairman, with that, I will yield back.
    Mr. Whitfield. Thank you, Mr. Griffith.
    At this time, I recognize the gentleman from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you. Mr. Chairman. And the panel heard my 
opening statement.
    I represent a very blue-color district in East Harris 
County. At any given time, our district has five refineries and 
lots of chemical plants, plus lots of service companies who 
hire my constituents to go out to the oil patch and work.
    And being a native Houstonian, this is the best economy I 
have ever seen. We used to joke about in the '70s how great it 
was. But then we had the '80s; and Louisiana, Texas, Oklahoma 
was in a depression in the '80s. And the rest of the country 
was doing oK, I guess, but we were in terrible shape.
    But our problem is--my goal in my district is I want to 
make sure--because I have a majority Hispanic district. 
Probably 85 percent of our student population is Hispanic, 
Mexican-American ancestry--is to make sure they know those jobs 
are there. And so we do job fares every year. In fact, I didn't 
get to go to my one this last Monday night because we had 
votes. But we had 500 people there with their parents, talking 
about job fare earlier and then career days where we help 
people fill out their paperwork for colleges.
    And--but the industry supports us, and I have seen that. 
Our job fare we did just recently, we had 80 employers. And 
back in 2008 and 2009, we were lucky to get 25 or 30.
    So--but my goal is to get those young people out of my high 
schools. If they don't want to go to college, we have community 
colleges that they can go to. And, frankly, industry is helping 
fund that, so they can get those skills.
    And the Secretary of Labor was in Houston about 2 weeks ago 
and was at the San Jacinto Community College in my area. And 
you can come out of high school with a high school diploma, 
take certification in certain skills, and make $80,000 a year. 
There was one young man who had taken certification so much 
that he was going to get his associates degree, 2 years, and he 
had a job offer for $120,000 with high school, plus community 
college skills training. So it is a great problem to have.
    Mr. Gerard, according to your testimony to the panel, 
accessed information pertaining to opportunities in the energy 
field is the number one obstacle that needs to be cleared. What 
steps has API taken to create outreach or provide access to the 
different communities to provide information about energy jobs?
    Mr. Gerard. I touched on that a little earlier, Mr. Green. 
But let me just add, we have created, in concert with many at 
this table and many others--Hispanics in Energy and some others 
that are key to your constituency--we are going around the 
country right now on city tours. We are having similar, I 
guess, you would call them job fares where we are coming out, 
talking about the issues. We have created a bilingual portal 
now that has over 1,000 companies, community colleges, and 
others to those who speak Spanish can go on.
    But the last thing I would add that we found is very 
important in this industry we are learning, in addition to the 
quantitative work we have done as you see in this report, we 
are also doing qualitative group where we are holding focus 
groups and others and finding out what is most important to 
these different segments of our society.
    For example, amongst the women, we are finding it is a 
workplace balance question where they want to be able to 
continue with family, but yet have opportunity. So we are 
nuancing our approach to make sure we are focused on what is 
important to these different segments.
    So we have got a lot of things going, and we expect to have 
more over time. It won't happen overnight. But we are committed 
to this long-term, and we believe it is going to happen.
    Mr. Green. OK. Director Harris, like I said, we have done 
job fares that focus on high school students coming out at the 
end of May. Has DOE conducted any research or outreach to local 
high schools, particularly in the area of the energy, whether 
it be in our areas, oil and gas, and downstream jobs at the 
refineries or chemical plants or maybe upstream? But I know 
coal is also interested. But has DOE looked at that workforce 
issue and done research and outreach of the high schools?
    Ms. Harris. Oh, absolutely. As a matter of fact, we look at 
K through 12, in addition to, you know, collegiate students, 
and then looking at that whole from--I use the term from 
kindergarten all the way through employment. And the fact that 
you are from Houston, which is the most diverse city in the 
country--right?--so we have been working very closely a lot in 
Texas, but across the country having a lot of internships, even 
through the Department that we support through high school. We 
have a lot of energy literacy. One of our offices promote that 
we get into the schools. We have been working very closely with 
the superintendents in the schools.
    And you mentioned another area, community colleges so we 
are working with a lot of models of students being--once they 
get their high school degree, they also get certification. When 
they receive their high school degree, they can actually go 
directly into the workforce. So, absolutely, we are working 
very closely with K through 12.
    Mr. Green. Mr. Alford and Ms. Jackson, can you explain in 
any more detail what you have done with leaders in the Hispanic 
community, in addition to this legislation, and what--where can 
it be helpful?
    Mr. Alford. Is this to me?
    Mr. Green. Yes.
    Mr. Alford. Well, we actually have a pretty big initiative 
with the Hispanic community because we have chapters in 
Columbia and Costa Rica. We work well with the U.S. Hispanic 
Chamber of Commerce and Latino coalition.
    So you will find--and especially when we talk about New 
York and Miami and others, you would find a black population 
that their first language is Spanish.
    Mr. Green. Yes.
    Mr. Alford. So it is mixed. And we are brothers and 
sisters, and we are working together.
    Let me also compliment Houston because it is consistently 
the number 1, 2, or 3 best market for black-owned businesses in 
the country.
    Mr. Green. Yes.
    Ms. Jackson. You know, we, as an association, work very 
closely with Hispanics in energy. So that is our sister 
association. And while they are much younger, what we try to do 
in working on some of the projects that even Mr. Gerard has 
talked about, is talk about cultural adaptability.
    And so providing some insight to industry and organizations 
about how we, as African-Americans or Latinos, think about the 
industry, who are the people who influence the kinds of jobs we 
want. Are we more apt to think about colleges versus blue 
collar? Do we listen to guidance counselors versus our parents?
    I mean, so part of kind of the learning that we have had--
and this collaboration is kind of providing that type of 
insight, so that you are not only offering the information, but 
you are offering it to the people who influence those who make 
those types of decisions.
    The second piece, though, is also having an understanding 
of what are the challenges? Why do students not look at STEM as 
an opportunity? Why do they not look at energy as an 
opportunity? And more specifically, maybe even oil and natural 
gas or your traditional utilities.
    People--students don't necessarily see it as glamorous. 
Sometimes we as industry talk about well-paying jobs, and that 
doesn't resonate with young people. We talk about jobs for 
life; that does not resonate with young people. When you talk 
about global, innovative, exciting, that resonates with them.
    And so we try to bring all of that together in these kind 
of community forums to provide a better sense of understanding, 
not only to the community members, but also to industry as they 
try to recruit.
    Mr. Green. Mr. Chairman, thank you. My goal is, minorities 
live next to those plants on the fence line; they ought to be 
able to go work there and enjoy the benefits of that, and so 
that is our goal.
    Thank you, Mr. Chairman.
    Mr. Whitfield. Gentleman's time has expired.
    At this time, I recognize the gentleman from Pennsylvania, 
Mr. Pitts, for 5 minutes.
    Mr. Pitts. Thank you, Mr. Chairman.
    For all of the talk about growing income inequality, 
another great concern is a decrease in opportunities for 
Americans to have economic upward mobility, and this has been a 
key part of the American dream.
    Can each of you please give a brief assessment on how the 
energy sector is providing opportunities to people that have 
technical training of some kind, not necessarily a college 
degree? We will start with you, Director Harris, and just go 
right down the line.
    Ms. Harris. When you look at the employment--when people 
think of the energy sector, they think it is comprised of just 
4-year-degree folks, engineers. But it is the supporting 
disciplines such as, you know, pipe fitters and all of the--
what I call community college-level work. And that is very 
important.
    Because when I--I was an engineer in Westinghouse, for 
example. When I would go onto a project, I will be a supervisor 
with maybe five engineers, but then I may have a crew of 15 
technicians. So you need the technical supporting workforce.
    So I would say, absolutely, when you look at not only the--
just the 4-year and engineering types, but everything from the 
business side. We work a lot with community colleges, focusing, 
again, that energy requires all technical support. But you need 
business leaders. You need to go into the colleges and go into 
the business schools, the marketing schools to actually support 
this whole infrastructure.
    So I use a term, there is probably very few people in this 
country in the workforce that cannot find a job in the energy 
industry. So it is very broad, and it is something that we need 
to educate our students and our communities more on.
    Mr. Pitts. Thank you. Mr. Alford.
    Mr. Alford. Yes. During the Katrina rebuild, we partnered 
with various oil companies and construction companies to have a 
training program in East Texas, Louisiana, Mississippi, and 
East Alabama--West Alabama. It was surprising to see how many 
of those kids graduated and entered into the labor market, from 
pipe fitters to oil riggers.
    Right now, Exxon still has that program going on in Baton 
Rouge. And to see a young kid come out of West Baton Rouge, who 
probably was destined to be a gang banger and slinging drugs, 
come out with little education, but craft and an $80,000 job. 
And that is someone who is going to have a productive life.
    Mr. Pitts. Thank you.
    Ms. Bell. I would have to say, a lot of the industries that 
have traditionally touched the energy efficiency industry have 
relied heavily on skilled workers, particularly in the 
construction industry.
    I would also say, within the efficiency community, we are 
seeing a growing community of entrepreneurs, particularly in an 
area around information technology called intelligent 
efficiency. And this requires skills in computing, business, 
information technology, and in industrial settings. And this is 
an area that is going to require training and trained workers 
as well.
    Mr. Pitts. Thank you. Ms. Jackson.
    Ms. Jackson. You know, I would say that part of what has 
gotten us in the situation that we are in today in terms of 
this workforce pipeline is that this industry offers incredible 
stability. And so when we talk about these high percentages of 
people who are about to retire, it is because they have been in 
organizations with 30, 40 years. And so you can have a really 
fruitful career. It doesn't mean that you are in the same job 
for 40 years, but you have a long career doing a myriad of 
different things; but that if you like the organization that 
you are working for and they like you and you do a good job, 
you could literally start at 21 and retire at 65 and be in the 
same place. And I don't know that there are many other 
industries that can tell that kind of story across sectors like 
this one can.
    Mr. Pitts. Thank you.
    Mr. Gerard.
    Mr. Gerard. Yes. The only other thing I would add to that--
and I think Paula makes a great point--is we view these as 
careers as long-term careers. So upward mobility in the oil and 
gas industry, there is great upward mobility. And as I 
mentioned earlier, 50 percent of our workforce will turnover in 
the next decade.
    But I think the other piece of it we shouldn't overlook is 
the compensation associated with that upward mobility, because 
the median average wage in the U.S. Today at $49,700. Ours is 
$96,000. And so these are great paying jobs. They are the type 
of jobs a lot of folks would love to have. And that is why this 
connection between these various segments in our industry is so 
important. We are putting a real focus on it.
    But the technical skills--this report we have released, it 
shows 1.3 million job opportunities. 63 percent of those fall 
in the traditional blue collar area.
    So you can get various skill levels that are required, all 
the way up to the Ph.D. We have young people leaving high 
school in North Dakota, making $100,000 driving a truck. And so 
these are great opportunities.
    So we view ourselves as one-stop shopping, if you will, 
from whatever skill level you have, all the way to the most 
advanced in our society.
    Mr. Pitts. Thank you. My time has expired.
    Mr. Whitfield. The gentleman's time has expired.
    At this time, I recognize the distinguished gentleman from 
Louisville, Mr. Yarmuth, for 5 minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman, fellow Kentuckian. It 
is good to be here. And I want to thank you and Mr. Rush for 
your leadership on this issue. It is a rare instance of 
bipartisanship where we can actually discuss in harmony a 
policy that, I think, has great potential for the country.
    I certainly agree with all of you that the energy field is 
going to be a source of continuing job growth and is one of the 
areas that we can look to to solving some of our employment 
challenges. And we have seen that in my district already.
    We, because of a tax credit that Congress approved to 
reward the manufacturers of energy efficient appliances for 
manufacturing those appliances in the United States, General 
Electric brought a line of energy efficient hybrid water 
heaters back from China to Appliance Park in Louisville, 
creating--bringing back 420 jobs. So we know we can do that.
    And I am reading a book now that is fascinating to me, and 
I recommend it to everybody. It is called The Second Machine 
Age, and it deals with the impact of the digital revolution on 
a lot of aspects of life, but particularly on employment. And 
one of the themes of the book, with regard to employment, is 
that, as we move forward, the kind of jobs that will survive 
are not necessarily jobs that require education, they are jobs 
that don't involve a repetitive process, that if you are in a 
job that involves a repetitive process, that that is probably 
going to be eliminated by digital technology. And you think of 
bank tellers and checkout clerks at supermarkets and so forth.
    So I am interested--Ms. Bell, you, I think, alluded to this 
in your testimony that the--and I know that in your prepared 
testimony, that your analysis is or your organization's that 
EPA's clean power plan will generate over $625 billion in 
investment in various energy-efficiency industries and create 
an average of more than 400,000 jobs a year.
    Are these the types of jobs that I am talking about that 
don't involve repetitive processes and seem to be kind of 
insulated against obsolescence because of digital technologies? 
It is the long way to get to a question. I apologize for that.
    Ms. Bell. Well, as I previously mentioned, so I think 
that--the short answer would be yes. When we perform these 
analyses, a lot of the job creation that we see is within the 
construction industry, which are jobs that don't necessarily 
involve those types of repetitive processes that you mentioned. 
They are also jobs that you can't really outsource. If you need 
somebody to work on your home, that is going to rely very 
heavily on local labor.
    Mr. Yarmuth. All right. Thank you.
    And, Director Harris, we know that besides the traditional 
energy jobs in oil, gas, coal, and nuclear, there will also be 
tremendous opportunities for minorities and women within the 
clean energy sector as well.
    In your opinion--well, in addition, I mean, everybody seems 
to agree that there are going to be a lot of good jobs for wage 
earners and salaried workers in the industry.
    Do you see an opportunity for underrepresented communities 
to become entrepreneurs and to start their own businesses as a 
result of the emphasis of this legislation?
    Ms. Harris. Absolutely. As a matter of fact, 
entrepreneurship, which is one area we work very closely with 
minority entrepreneurs. I am a previous owner myself. I am an 
entrepreneur as well outside of this, when I return to my 
private life.
    So, yes. Absolutely. Entrepreneurship is the--you know, of 
course, entrepreneurs employ, what, 90 percent of the jobs in 
this country. So, yes, absolutely. Particularly with the 
development that is happening in this country, we would have to 
rely on a lot of the entrepreneurs to promote the development 
here in energy.
    Mr. Yarmuth. OK.
    Ms. Harris. Yes.
    Mr. Yarmuth. Well, I appreciate your testimony and all of 
your efforts in this regard. I think it is something that we 
can all get behind. And I, once again, thank the chairman and 
ranking member for their work. I yield back.
    Mr.Whitfield. Gentleman yields back.
    At this time, I recognize the gentleman from Illinois, Mr. 
Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Chairman. Appreciate it. Sorry I 
have been in and out. But I am not going to have a lot of 
questions.
    Primarily the statement that, even in the great recession, 
in my district, we were building a coal-fired power plant and 
we are expanding a major refinery. So thousands of mostly 
building trade, union workers had jobs in the worst cycle of 
job creation, or lack thereof, in decades because of the fossil 
fuel sector.
    That is the ConocoPhillips refinery that expanded to take 
oil sands, to take obviously the Keystone Pipeline and now 
hopefully Keystone XL eventually, to refine that, and to put it 
into the market.
    And I also want to just take the note of--I am an American 
Legion member, life member, and an Army veteran, so I get the 
magazine. In their September magazine, they do an expose on the 
Bakken and how it is a great place for veterans to find jobs.
    So I would--so this is right up the alley of what we should 
also be thankful for in the fossil fuel sector: Good jobs, high 
paid wages, health care benefits, and really valuable work for, 
not just our Nation, but national security.
    As we become more energy independent here in our country, 
those who focus on the problems around the world--I like to 
focus on the Russian Federation that extorts allies on the 
fossil fuel sector. The more we are able to export crude oil 
and LNG and we have got to build those--we have got to retrofit 
the LNG terminals, the more we help our allies who are 
democratic countries around this world be free.
    And so we are in a--we are in a very exciting period of 
time in our history, if we take advantage of it. So I want to 
applaud my friend, Bobby Rush, from the State of Illinois for 
helping us look at how we can get people more--more people back 
to work.
    And then in that, our country is strong militarily. We all 
know that. In this world today, we also have to be strong 
economically, and that is when people work.
    And so I appreciate your testimony and you being here, and 
we look forward to working with you.
    Mr. Chairman, I just wanted to put that on the record. I 
yield back.
    Mr.Whitfield. Gentleman yields back. At this time, I 
recognize the gentleman from New York, Mr. Engel, for 5 
minutes.
    Mr. Engel. Thank you very much, Mr. Chairman.
    A number of the questions I have been asked, but I just 
want to make a statement and then perhaps ask a question at the 
end.
    So thank you. Thank you to the panel for being here and for 
sharing your views. I want to thank you, Mr. Chairman, and Mr. 
Rush as well for holding the hearing.
    As our economy continues to recover, I am grateful that my 
colleagues and I have an opportunity to discuss such a critical 
aspect of America's economic future, which, of course, is the 
energy sector.
    I am excited about the energy sector, and I am glad this 
committee is not only taking the time to focus on the potential 
the energy industry holds for job creation, but also on how 
this potential might positively impact women, Hispanic-
Americans, and African-Americans.
    The aim of the legislation is certainly commendable, 
providing the direct assistance to community colleges, schools 
with certain minorities, and workforce training institutions. I 
have many of those in my district. As the bill proposes would 
be a valuable tool in helping women and minorities succeed in 
the energy careers.
    But I think we can and should look beyond higher education. 
Both Forbes and The New York Times recently reported that the 
STEM academic divide between white men, women, and minorities 
materializes years before college. This can happen for 
different reasons. Entrenched stereotypes about the 
professional and academic prospects for women in STEM fields 
have prevented teachers from devoting the same resources to 
young female students as their middle classmates.
    And, additionally, according to the National Science 
Foundation, schools in primarily minority areas often hire 
teachers who are not as experienced in STEM disciplines as the 
teachers in primarily white areas.
    Before I ever entered politics, I was a classroom teacher 
in my hometown of the Bronx, New York. I wanted to teach in 
minority areas at the time and did so for 7 or 8 years before 
politics caught my eye and went in a different direction.
    But I felt then, as I feel now, that if younger people are 
exposed to these kinds of things--we used to have a period 
called ``chop,'' and we would teach young boys certain skills 
and--but unfortunately, those were stereotyped. Girls did 
cooking, and boys did something else. Those are, I guess, the 
bad old days, but the intentions were really good.
    So I really think that there is no magic bullet to solve 
these obvious problems, but I feel that these issues need to be 
discussed. And as Mr. Alford said in his testimony, it is 
critical to engage students, not just at the college level, but 
also at a younger age. I taught in the middle school setting.
    I was heartened to hear Ms. Jackson's description of 
efforts of the American Association of Blacks in Energy has 
taken to encourage elementary, middle, and high school students 
to take an interest in energy careers.
    Director Harris, let me ask you one question. I know it was 
sort of asked by Mr. Green, but perhaps if you could expand. 
Does the Department of Energy have any plans to help ensure 
that young female minority students' interest in the sciences 
are not forgotten or dismissed before they reach college? 
Perhaps you could expand on what you mentioned when you 
answered Mr. Green.
    Ms. Harris. I am the senior official for the Department for 
the White House Council for Women and Girls. Girls--as a matter 
of fact, all students, we want to catch them right where you 
were teaching, in middle school. If you capture a kid about the 
6th grade, that is when you can get them interested in science, 
in STEM.
    We work with a whole host of students--girls in 
particular--across the country. Everything from Girls Inc., 
Girls Scouts. My team know, when I travel, probably a good 30 
percent of my travel has been focusing in STEM area, in 
visiting students and girls, in particular, all across the 
country. So this is a very, very, not only important initiative 
for the Department, Secretary Moniz, but me personally. I am 
very committed to this one.
    Mr. Engel. Thank you. Let me ask you or anyone else who 
would care to answer. We know things are moving in the right 
direction. At least, I believe they are. Obviously, we still 
have a long way to go because these things have been engrained 
in society for a number of years.
    And perhaps some of you had answered this while I was gone, 
but do you finally feel that we are getting it right, that we 
are moving in the right direction, albeit slowly, probably not 
fast enough? Is there hope? Are you hopeful that we are finally 
getting in and that energy, in particular--because it obviously 
is something that is so important--is the right field to get 
younger people interested in?
    I have been a strong supporter of the U.S. energy. We are 
now the number 1 energy producer in the world, and I think that 
I am also on the Foreign Affairs Committee, and I think that 
energy is important in geopolitical discussions as well. It can 
make the United States even more of a player.
    So I just--if any of you would care to comment on 
direction. Yes. Mr. Alford.
    Mr. Alford. Yes, sir. Well, here is another cliche. But you 
fish where the fish are biting. And energy is offering jobs by 
the thousands, and doesn't require serious education, I mean, 
multilevel education.
    In fact, we are starting an ex-offender program where we 
are getting these kids coming out of prison and teaching them 
some skills or how to become an entrepreneur, how to make a 
widget and go sell it to people who buy widgets. And we are 
looking at the energy field as a marketplace for this, too, in 
addition to the other industries.
    Mr. Engel. Yes.
    Ms. Jackson. I think we are getting it right. I think we 
are on the path to getting it right. I think our biggest 
challenge has really been, not a lack of interest by students, 
but a lack of information. And so the more that we talk about 
this field and this industry as an opportunity, it certainly 
piques their interest.
    I will give you one example. A year ago I was speaking to a 
group, and I met a young woman who was studying petroleum 
engineering and was unsure as to whether or not she would be 
marketable. And I asked her to send me her resume, and I was 
amazed to find that this woman had already had a BS in biology. 
She spoke five languages, including Arabic, and had no idea 
that someone would want to hire her.
    And so we have just got to do a better job of letting 
students know that, hey, you know, we are here and we want you, 
because it just doesn't cross their mind.
    Mr. Gerard. Mr. Engel, I think the verdict is still out. 
But I think our real test as a Nation--it goes back to the 
question Mr. Rush asked earlier--what is the risk if we don't 
get this right. And from your vantage point, being on Foreign 
Affairs, you see those risks in a very intimate, direct way.
    But I think 3 or 4 years from now, if we look back on this 
point, and based on all the collaboration we are seeing, the 
leadership of this legislation, others, this is really the 
turning point. And part of that is an understanding on the part 
of the American public that we truly have moved from scarcity 
to abundance, and we have now got to shift that mindset.
    It shouldn't be based on the Arab oil embargo of the 1970s. 
And that comes to public policy questions, like oil exports and 
others that Mr. Shimkus mentioned earlier. If we take advantage 
of those opportunities, and you know the implications of that 
better than I do in terms of our allies, our partners around 
the world, then I think we can look back at this time and 
declare a job well-done, that we captured the vision, we seized 
the moment, and we really moved us in a new direction. And it 
benefits all Americans from whatever walk of life.
    But the focus here now creates the opportunity 5, 6 years 
down the road, we can look back and see how well we did, but I 
don't think we know yet. We have got to stay after this. This 
can't be a fleeting moment. It has got to be a long-term 
commitment, and we have got to stay at it, and then I think we 
will begin to see the culture change.
    Mr. Engel. I agree. Thank you.
    Thank you Mr. Chairman.
    Mr. Whitfield. Thank you. And that concludes the questions 
for today. Mr. Rush.
    Mr. Rush. Mr. Chairman, I ask for unanimous consent to 
enter into the record a letter in support of the bill from the 
National Urban League.
    Mr. Whitfield. Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. And, Mr. Chairman, if you don't mind, as we 
conclude this hearing, I must, again, applaud you, Mr. 
Chairman, and applaud all the members of the subcommittee on 
both sides of the aisle. This has been a rare occurrence here 
in the Congress over many years where you have bipartisan 
support, collaboration on an issue that is before the American 
people.
    And I just can't--it just gladdens my heart to know that 
this subcommittee is formulated by individuals who really care 
about their constituents and about the American people and who 
are visionary enough to see the opportunities, geopolitical, 
nationally, locally; that by aggressively and proactively and 
creatively harnessing the energy and the imagination of our 
people, the consciousness of our people to really take 
advantage of all the opportunity that we are blessed with in 
regards to this whole energy sector.
    I mean, to squander these blessings would be the most awful 
sin that we can commit to the future of this Nation. And I just 
want to salute you and the courage of the other members of the 
subcommittee that have participated, and those who would have 
except for the need of other obligations.
    But this is the spirit that I think that we all aspire to, 
realizing to be a part of when we take the oath to serve this 
Nation and our constituents. So, again, Mr. Chairman, thank you 
for your leadership.
    Mr. Whitfield. Well, Mr. Rush, thank you. And it is a very 
important subject.
    And during the hearing, I actually whispered to Mr. Rush if 
he felt uncomfortable in this kind of bipartisan effort. But it 
is an important issue obviously, and I look forward to working 
with all of you and our staffs doing more on this 21st Century 
Workforce Development Act.
    And thank you so much for your testimony. And all of you 
provided real insights for us, and it was quite helpful. And as 
I said, I look forward to working with all of you.
    The record will remain open for 10 days for any additional 
materials. And that concludes today's hearing. Thank you very 
much.
    [Whereupon, at 11:36 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
